<html>
<title> - LEGISLATIVE HEARING ON H.R. 888, H.R. 4335, H.R. 4910 AND H.R. 4958</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  LEGISLATIVE HEARING ON H.R. 888, H.R. 4335, H.R. 4910 AND H.R. 4958

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 20, 2018

                               __________

                           Serial No. 115-53

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                     
                     
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-466                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e5e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>                            
                     
                    
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   KILILI SABLAN, Northern Mariana 
                                         Islands

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           
                           C O N T E N T S

                              ----------                              

                        Tuesday, March 20, 2018

                                                                   Page

Legislative Hearing On H.R. 888, H.R. 4335, H.R. 4910 AND H.R. 
  4958...........................................................     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     1

                               WITNESSES

The Honorable J. Luis Correa, Member, U.S. House of 
  Representatives................................................     2
The Honorable Austin Scott, Member, U.S. House of Representatives     3
Ms. Cheryl Rawls, Director, Pension & Fiduciary Service, Veterans 
  Benefits Administration, U. S. Department of Veterans Affairs..     4
    Prepared Statement...........................................    12

        Accompanied by:

    Ms. Lisa J. Pozzebon, Executive Director, Office of Cemetery 
        Operations, National Cemetery Administration, U. S. 
        Department of Veterans Affairs
Mr. Larry L. Lohmann, Assistant Director, National Legislative 
  Division, The American Legion..................................     5
    Prepared Statement...........................................    14
Mr. Carlos Fuentes, Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................     7
    Prepared Statement...........................................    16

                       STATEMENTS FOR THE RECORD

The Honorable Walter B. Jones, Member U.S. House of 
  Representatives................................................    17
National Park Service, U.S. Department of the Interior...........    18

 
  LEGISLATIVE HEARING ON H.R. 888, H.R. 4335, H.R. 4910 AND H.R. 4958

                              ----------                              


                        Tuesday, March 20, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Esty, Correa and Scott.

                 OPENING STATEMENT OF MIKE BOST

    Mr. Bost. Good morning, everyone. This hearing will come to 
order. Thank you all for joining us today to discuss the 
important legislation pending before the Subcommittee. The four 
bills we will discuss today address issues that are very 
important to veterans and their families. These bills would 
expand eligibility for burial in national cemeteries to certain 
spouses and children of servicemembers, streamline the delivery 
of the DIC benefits to grieving family members, and extend 
benefits to veterans who are buried in national park service 
cemeteries.
    We will also discuss a bill that I introduced with Ranking 
Member Este, H.R. 4958, the Veterans Compensation Cost of 
Living Adjustment Act of 2018. H.R. 4958 would give a cost of 
living increase for veterans and their families who receive VA 
disability compensation or other benefits. I am proud to say 
that last year's COLA, which I also introduced with Ms. Este, 
went into effect December 1st, 2017. And since COLAs are not 
automatic, are not automatically provided for veterans' 
benefits to each year, it is essential that we pass this bill 
to ensure that veterans can keep up with the inflation to 
maintain their standard of living and receive the benefits they 
have earned. Of course, H.R. 4958 has my full support.
    I know many of my colleagues here today have worked hard on 
their proposals and I look forward to having a productive 
discussion. Now, I am going to turn it over to Ms. Este for any 
opening remarks she might have.

              OPENING STATEMENT OF ELIZABETH ESTY

    Ms. Esty. Thank you, Mr. Chairman. I am very happy to be 
here this morning for the second legislative hearing this 
Congress for the DAMA Subcommittee. I have learned a great deal 
since I became Ranking Member of this Subcommittee and I feel 
like we have done a lot of good work together. Last year's COLA 
and the appeals modernization bill are two prime examples. So 
thank you and your staff, Mr. Chairman, for the bipartisan way 
in which you have approached our responsibilities here because 
it is more productive for veterans and, frankly, for the 
Congress as a whole. So thank you very much.
    I won't review the four bills in detail before we begin. 
But I did want to highlight that I strongly support H.R. 4958, 
the Veterans Compensation Cost of Living Adjustment Act of 2018 
sponsored by Chairman Bost and myself. I am very happy to have 
joined again this year as the original co-sponsor. This bill 
ensures that important veterans' benefits keep economic pace so 
veterans with service-connected disabilities and their 
surviving spouses who receive dependency and indemnity 
compensation do not see their benefits eroded when the cost of 
living increases.
    I also want to welcome our Veterans Committee colleague 
Louis Correa, whose bill H.R. 4335, the Service Member Family 
Burial Act, is on the agenda today. This bill would make it 
easier for a veteran's child or spouse to be buried in a 
national veteran's cemetery or state cemetery when they 
predecease a servicemember on Active duty. These can be very 
tragic situations. And this will streamline a process being 
handled now by VA on a case by case basis. The bill is broadly 
supported by the veterans' service organizations and the VA, 
and I urge of my colleagues to support it as well.
    And I also want to welcome too our other colleagues here 
today: Walter Jones, who I believe will be joining us, and 
Representative Austin Scott to the Veterans Committee to 
testify on behalf of their bills. I look forward to their 
testimony and to the testimony of the VA and the VSOs. Thank 
you all for being here. And with that, Mr. Chairman, I yield 
back.
    Mr. Bost. Thank you, Ms. Esty. And we are honored, as you 
were mentioning--there we go, that is better. Thank you. We are 
honored this morning to be joined by two of our colleagues. The 
third may come along later. Any rate, Representative J. Louis 
Correa of California and Representative Austin Scott of 
Georgia. Welcome to both of you. We appreciate you taking the 
time out of your day to be here with us and for sponsoring 
legislation that will help our Nation's veterans.
    We will be starting with--on the Full Committee we are 
going to let--Mr. Correa is going to be on that speaking from 
the dais. Mr. Correa, you are recognized for five minutes on 
H.R. 4335.

              OPENING STATEMENT OF J. LUIS CORREA

    Mr. Correa. Thank you, Mr. Chairman Bost and Ranking Member 
Esty, Members of the Committee for hosting--for holding this 
most important hearing. And I do appreciate the opportunity to 
speak on this bipartisan measure, H.R. 4335, known as the 
Service Member Family Burial Act. I also want to thank my 
colleague and friend Congressman Mike Coffman for his support 
in this legislation.
    Today, as you know, the National Cemetery Administration 
processes requests for burial of deceased spouses and dependent 
children of Active duty personnel in national cemeteries on a 
case by case basis. The current process can be intrusive and 
difficult, especially when you take into context what is going 
on in a servicemember's life.
    This bill adds predeceased spouses and dependent children 
of Active duty personnel to the list of people eligible for 
burial in national cemetery. It is a simple change, streamlines 
the process. And if you think about the situation of Active 
duty servicemen and women when they have a family member 
predecease them, I believe this is a very important issue. And 
I appreciate the opportunity to present. And I hope to count 
with your support, Mr. Chairman.
    Mr. Bost. Thank you. And now we would like to go to 
Representative Scott. You will be speaking on--let me get this 
right because the things got cut, there we go, 4910. You are 
now recognized for five minutes.

               OPENING STATEMENT OF AUSTIN SCOTT

    Mr. Scott. Thank you, Mr. Chairman and Madam Ranking Member 
and Members of the Subcommittee. Thank you for hosting me and 
allowing me to speak today on what I hope to be a very simple 
bill that will help people who are honored to be buried in our 
veteran cemeteries. H.R. 4910, the Veteran Cemetery Benefit 
Correction Act, it is an act that would require the Department 
of the Interior to provide outer burial receptacles, also known 
as grave liners, for veterans buried in cemeteries under the 
control of the National Park Services.
    Current law requires the United States Department of 
Veterans Affairs to provide an outer burial receptacle to a 
veteran buried in a national cemetery under the control of the 
National Cemetery Administration, a branch of the VA. 
Additionally, the VA can provide a reimbursement if the family 
chooses to purchase one in lieu of a government furnished grave 
liner. However, cemeteries under the control of the National 
Park Services are not covered by this statute. And neither the 
VA nor the National Park Services are able to provide this 
benefit for veterans buried in those cemeteries.
    The Veteran Cemetery Benefit Correction Act would amend the 
law to require the Department of the Interior to provide an 
outer burial receptacle for each new veteran's grave in a 
national cemetery under the control of the National Park 
Service. This bill would also provide for the reimbursement of 
a veteran survivor who provides a privately purchased outer 
burial receptacle for use in a National Park Service cemetery.
    Of the fourteen national cemeteries controlled by the 
National Park Services, there are two that are still active: 
Andersonville National Cemetery in Georgia in Congressman 
Sanford Bishop's district, and Andrew Johnson National Cemetery 
in Tennessee in Congressman Phil Roe's district.
    I am pleased that this is a bipartisan piece of 
legislation. It is simply common sense that we would treat the 
families in national parks the same as we treat those that are 
buried in the other veteran cemeteries. And I would appreciate 
your favorable consideration of this legislation.
    Mr. Bost. Thank you, Representative Scott. And thank you 
for being here today. We will forgo questions for our 
colleagues at this time. Any questions may be submitted for the 
record. Again, thank you for joining us here today and this 
morning. You are now excused if you want to leave. And if not, 
and you want to stay that is great too. I invite our second 
panel to the table. Joining us today from the VA is Ms. Cheryl 
Rawls who is the Director of Pension and Fiduciary Services for 
Veterans Benefits Administration. Ms. Rawls is accompanied by 
Ms. Lisa Pozzebon. Right? Who is Executive Director of the 
Office of Cemetery Operations for the NCA. We are also joined 
by Larry Lohmann, the Assistant Director of National 
Legislative Division for The American Legion. And Mr. Carlos 
Fuentes, the Director of the National Legislative Services of 
Veterans of Foreign Wars. Thank you all for being here. Ms. 
Rawls, you are now recognized for five minutes to present the 
Department's testimony.

                   STATEMENT OF CHERYL RAWLS

    Ms. Rawls. Good morning, Mr. Chairman and Members of the 
Subcommittee. I am pleased to be here today to provide the 
views of the Department of Veterans Affairs on pending 
legislation affecting several of VA's programs. As you 
mentioned, sir, accompanying me is Ms. Lisa Pozzebon, Executive 
Director, Office of Cemetery Operations, National Cemetery 
Administration.
    All right so let's get to it. H.R. 888, Automatic 
Enrollment for Dependency and Indemnity Compensation, DIC, for 
survivors of certain totally disabled veterans. This bill 
applies to veterans currently eligible for DIC under Section 
1318-A of Title 38, which provides DIC to survivors, spouse or 
child, of a veteran who is receiving compensation or entitled 
to receive compensation for a service-connected disability 
which was totally disabling. This bill would amend 1318 by 
requiring the VA to treat a death notification the same as a 
claim for DIC.
    While VA is in tune to the intent of this bill, which is to 
provide expeditious seamless claims process for these 
beneficiaries who have lost loved ones, VA does not support the 
bill for the following reasons. One, the bill could slow down 
our process as we currently have the authority and means to 
quickly pay those eligible under 1318 without the beneficiary 
filing a claim. Two, although VA may already have the requisite 
information to pay the DIC claim, the bill establishes a claim 
for everyone covered under 1318 and would require contact and 
development regarding the DIC claim. And lastly this bill 
assumes eligibility and entitlement are the same. As the final 
decision for a claim that we have established on behalf of the 
beneficiary could possibly be denied by VA.
    H.R. 4335, Service Member Family Burial Act. This bill 
authorizes the Secretary to enter and provide a memorial 
headstone or marker for placement in a national cemetery for 
the spouse or child of Active duty personnel with service other 
than dishonorable at the time of a spouse or child's death. 
Providing there is documentation from a general court martial 
convening authority. VA supports this bill, as it ensures that 
Active duty servicemembers whose survivors die may bury their 
loved ones in a VA national cemetery. We truly appreciate the 
Committee taking up our proposal and we thank you.
    H.R. 4910. This bill would require the Secretary of the 
Interior to provide an outer burial receptacle for each new 
grave in an open cemetery under the control of the National 
Park Service. The bill calls for amending some of the authority 
provided the Secretary of Interior and therefore the VA defers 
to the Department of Interior regarding this bill.
    Lastly, H.R. 4958, the Veterans Compensation Cost of Living 
Adjustment Act of 2018. The bill requires the Secretary to 
increase the rates of disability compensation in DIC by the 
same percentage as any increase of social security benefits 
effective on December the 1st 2018, as well as publish these 
increased rates in the Federal registry. VA strongly supports 
this bill, as it honors the sacrifice made by all service 
disabled veterans and survivor.
    Mr. Chairman and Members of the Subcommittee, thank you 
again for having us here today to talk about these bills. We 
truly appreciate the Committee taking up these proposals for 
our Nation's veterans. This concludes my statement and we are 
now happy to take any questions.

    [The prepared statement of Cheryl Rawls appears in the 
Appendix]

    Mr. Bost. Ms. Rawls, thank you. Mr. Lohmann, you are 
recognized for five minutes to give the testimony.

                 STATEMENT OF LARRY L. LOHMANN

    Mr. Lohmann. Thank you, Chairman Bost. Chairman Bost, 
Ranking Member Esty and distinguished Members of the 
Subcommittee on Disability Assistance and Memorial Affairs. On 
behalf of our National Commander, Denise H. Rohan and the two 
million members of the American Legion I thank you for the 
opportunity to testify regarding pending legislation before 
this critical Committee.
    The bills before you this morning are common sense 
solutions, Mr. Chairman, and the American Legion is thankful 
for your leadership in bringing these forward. In consideration 
of time I'll briefly touch upon the burial benefit bills, H.R.s 
4335 and 4910 and will primarily focus on H.R.s 888 and 4958.
    As I have said H.R. 4335, the Service Member Family Burial 
Act and H.R. 4910, the Veterans Cemetery Benefit Correction Act 
are bills that simply codify common sense benefits earned by 
those who have raised their right hand and taken the oath to 
defend the US Constitution.
    H.R. 4335 would amend Title 38 to include family members of 
Active duty members of the armed forces. This bill streamlines 
the application process for those on Active duty and eliminates 
the need for waivers allowing grieving families additional time 
to make proper arraignments during a difficult period. It just 
makes sense.
    In the same vein H.R. 4910 is a common sense law that 
requires the Department of the Interior to provide outer burial 
receptacles for veterans' remains buried in open cemeteries 
under National Park Service Control. A deserved benefit earned 
with a common sense law to provide for the benefit.
    For nearly 100 years the American Legion has advocated on 
behalf of our Nation's veterans, to include the awarding of 
disability benefits associated with chronic medical conditions 
related to selfless service to this Nation.
    H.R. 4958, the Veterans Compensation Cost of Living 
Adjustment Act of 2018, appropriately recognizes annual 
increases to cost of living and increases benefits commensurate 
with those cost increases for veterans with service related 
medical conditions or veterans earning low incomes. For these 
veterans and their family members this adjustment is tangible 
benefit that meets the needs of the increasing cost of living 
in a Nation they defended.
    The American Legion is pleased to support H.R. 4958 in part 
because it does not include two mechanisms we resolved to 
oppose, consumer price indexing and round down provisions. The 
American Legion particularly appreciates this bill does not 
include round down provisions that have appeared in other 
legislation recently, including President Trump's proposed 
fiscal 2019 budget where veteran benefits would be rounded down 
to the next whole dollar to save money. Rounding down is a 
slippery slope that dilutes the value of future benefits. 
Veterans should never have their benefits rounded down to 
provide legislative fiscal ease to help offset the cost of 
other government action. Veterans having served our Nation have 
already paid the full price for those benefits and as such 
should not have it diminished for accounting convenience.
    Next the American Legion supports H.R. 888, a bill to 
improve dependency and indemnity compensation for survivors of 
certain totally disabled veterans. The American Legion has long 
supported any action that makes filing claims easier for 
veterans and their dependents. In 2015 the American Legion 
opposed VA's standardization of forms eliminating the ability 
for informal claims. Since that time the American Legion has 
supported reinstating informal claims and adopted resolutions 
to reach that end, as well as generally ease administrative 
burden on veterans and their families.
    This bill eases the burden currently existing on surviving 
spouses and children or deceased veterans. Under current law 
surviving spouses and children claimants must file a formal 
claim form to start the claims process for disability and 
indemnity compensation. This bill will improve and simplify the 
application process for surviving spouses and children of 
deceased veterans by requiring the VA to treat notification of 
the veteran's death as a claim for disability and indemnity 
compensation.
    Through resolution number 377 the American Legion supports 
legislation to enhance the quality of life for veteran's 
dependents and their survivors. Because the reporting date of a 
veteran's death is a date that can easily be ascertained by the 
VA for claim establishment and adjudication purposes, this bill 
is a common sense fail safe solution to help grieving 
survivors.
    In closing, the American Legion believes in common sense 
solutions that help our Nation's veterans. Thank you again, 
Chairman Bost, Ranking Member Esty and distinguished Members of 
the Committee. I appreciate the opportunity to present the 
American Legion's views and look forward to any questions that 
you may have.

    [The prepared statement of Larry L. Lohmann appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Lohmann. And Mr. Fuentes, you are 
recognized for five minutes.

                  STATEMENT OF CARLOS FUENTES

    Mr. Fuentes. Chairman Bost, Ranking Member Esty and Members 
of the Subcommittee, on behalf of the men and women of the VFW 
in our auxiliary I would like to thank you for the opportunity 
to present our views on legislation pending before the 
Committee.
    The VFW supports H.R. 888, which would require the VA to 
treat a notification of death of a veteran rated totally 
disabled at the time of death as a claim by the veteran's 
surviving spouse or children for DIC benefits. The VFW believes 
this legislation would be a good step towards mitigating the 
need for grieving survivors to file additional paperwork to 
receive their DIC benefits.
    The VFW supports the Service Members Family Burial Act, 
which would require VA to provide headstones and markers for 
deceased spouses and dependent children of members of the armed 
forces serving on Active duty. Currently spouses and dependent 
children who proceed their Active duty servicemember in death 
are authorized in a case by case basis to be interred in 
national cemeteries. However, the process requires the approval 
of the Undersecretary of Memorial Affairs and often requires 
the Active duty servicemember to submit information that may be 
intrusive and taxing, especially at a time of mourning. Which 
also leads to unnecessary delays. Our brave men and women in 
uniform deserve a better process to honor their deceased loved 
ones. This bill would rightfully remove unnecessary barriers to 
ensure servicemembers can spend an eternity with their loved 
ones.
    The VFW supports the Veterans Cemetery Benefits Correction 
Act, which would require the Secretary of Interior to provide 
outer burial receptacles to those who wish to be entered in 
cemeteries under the jurisdiction of the National Park Service. 
Currently both VA and DoD are required to provide this benefit, 
but the National Park Service is not. There are two active 
cemeteries currently administered by the National Park Service 
that are open for new internments. Veterans who chose to be 
buried at these cemeteries deserve the same honor of those who 
are buried in VA and DoD cemeteries.
    The VFW supports the Veterans Compensation Cost of Living 
Adjustment of 2018, which would adjust VA benefits for veterans 
and survivors to keep pace with inflation. Disabled veterans 
and surviving spouses and children depend on VA benefits to 
bridge the gap of lost earnings caused by a veteran service 
disability. Yet each year they wait anxiously to find out if 
their benefits will keep pace with the rate of inflation 
because there is no automatic trigger that increases these 
forms of compensation for veterans and their dependents. It 
should not take an act of Congress to provide the same 
adjustment that is automatically granted to social security 
beneficiaries. The VFW is glad this bill would include 
automatic COLA increases based on the percentage increase under 
the Social Security Act.
    Mr. Chairman, this concludes my testimony. I'm happy to 
answer any questions you may have.

    [The prepared statement of Carlos Fuentes appears in the 
Appendix]

    Mr. Bost. We have a full agenda today, so I'm going to 
limit the time to five minutes. And I would start--I will start 
the questioning. Ms. Rawls, please elaborate on your testimony 
as to why it is important for congress to pass H.R. 4958, the 
Veterans Compensation Cost of Living Adjustment Act for 2018.
    Ms. Rawls. Thank you very much for the question. I will 
tell you that the veterans have sacrificed so much and their 
survivors that it is important for us to allow them to continue 
to maintain their standards of living to keep pace with 
everyone else and to be treated the same as those who are 
receiving social security benefits.
    Mr. Bost. Thank you. And my second question is, Ms. Rawls, 
the VA usually knows when a service-connected veteran has 
surviving dependents. Can you please explain why the Department 
believes it would be--would harm families to set automatic 
convert compensation benefits to DIC for eligible surviving 
families and PNT veterans.
    Ms. Rawls. Thank you very much, Mr. Chairman, for that 
question. So currently the way the legislation is written is 
that it only deals with 1318-A. That piece covers three types 
of veterans, POWs, those at 100 percent service-connected and 
they have that within--they have been 100 percent service-
connected for ten years, or those who have recently departed 
the military and they have been out for less than five years 
and they have succumbed to their service-connections.
    The other piece to that is that we need to have the spouse 
of record on hand and that spouse of record needs to be that 
spouse of record for a year. We currently right now pay 53 
percent of those claims automatically without having anyone 
file a claim based upon the information that we have in our 
systems. The only time that we are sending out this information 
is if we are not able to verify the spouse of record, if we 
don't have it on there for a year, or if it is in a estate 
where there's no one there no one there, or if it is a child 
and we need to see who is going to be that person taking over 
that child. So that is why we have that 47 percent that we 
can't pay, but we send them information. If we were to 
establish that claim for those that we are able to pay, then we 
are asking them to do something that they really don't need to 
do because we have the information on record, sir.
    Mr. Bost. Okay. Thank you. That is important to know. Ms. 
Pozzebon, can you explain the purpose of an outer burial 
receptacle?
    Ms. Pozzebon. Sure. The purpose of an outer burial 
receptacle is essentially to provide stability in the grave. 
And so while it provides a limited protection to the remains 
that interned within it, it is not necessarily designed for 
preservation as much as it is stability of the grave so that 
the grave doesn't collapse.
    Mr. Bost. Okay. So is this what we would know as a vault or 
not?
    Ms. Pozzebon. A vault is generally something different. And 
a vault can be a little more of a significant structure that 
can provide a little bit more of that protection that I was 
talking about.
    Mr. Bost. Okay.
    Ms. Pozzebon. And that is why sometimes families opt for a 
vault. They can be made of stronger materials and lined so that 
it will preserve the remains a little bit longer than an outer 
burial receptacle would.
    Mr. Bost. Well, there are currently two open veteran 
cemeteries administrated by the National Park Service. I know 
one of those is Chairman Roe's district. Would it be 
significant administrative burden for the VA to provide outer 
burial receptacles for veterans who choose to be interned into 
those cemeteries?
    Ms. Pozzenbon. The issue is more that we do not have the 
statutory authority to provide those outer burial receptacles 
to the Park Service for use for veterans. So we do provide them 
in our cemeteries, as does Arlington, but we don't have that 
ability. We certainly would be willing to work with them and 
help them, you know, implement a similar program as called for 
under this legislation.
    Mr. Bost. Okay. Thank you. The next question, I am going to 
do it real quickly here. This is for the VO witnesses. Based on 
your experience please share your perspective on why veterans 
should get a cost of living increase next year if social 
security beneficiaries get on. Mr. Lohmann or either one.
    Mr. Lohmann. Thank you, Chairman Bost. Generally we support 
any benefit that would help a veteran that helps with their 
cost of living. And this obviously raises it to keep up with 
inflation and helps maintain a standard of living that they 
have become accustomed to.
    Mr. Lohmann. Yeah, I would just echo Mr. Fuentes' statement 
that we would really prefer it to be automatic as well and 
remove it from the equation and take veterans out of the 
debate.
    Mr. Bost. Mr. Fernandez, I would assume that your answer is 
pretty well the same.
    Mr. Fuentes. Yes. You know, price of gas and general goods 
increase, so should the benefits.
    Mr. Bost. Thank you. And my time has expired. Ranking 
Member Esty, you are recognized for five minutes.
    Ms. Esty. Thank you, Mr. Chairman. Again, thank you for 
joining us here today. I wanted to follow up, Ms. Rawls, with 
the conversation you were having with the Chairman. We are 
striving for efficiency. I do have a concern you indicated that 
this would slow things down to file claims. And you also--but 
what you didn't answer is a question I have is what happens if 
you have a surviving dependent that doesn't file a claim, would 
they receive anything? What if they're not in your system? What 
if the records are out of date or inaccurate and that person 
doesn't file, wouldn't they then not receive any compensation 
under what you are proposing that we allow to continue?
    Ms. Rawls. So thank you very much, ma'am, for the question. 
And absolutely there could be that circumstance. Right now 
whenever we are notified of a veteran's death the home of 
record that we have in our database if we are not able to apply 
1318-A to that person, then we do send them out information as 
to how to file a claim and what their benefits consist of.
    Ms. Esty. Well, I hope you will work with us on trying to 
get the efficiency that we have for spouses to be eligible for 
children as well. I think that is our shared goal. And you have 
raised some issues here today, but I think we have raised some 
back that merit further conversation and figuring out a way to 
make this as easy as possible. It is a ten-page form. We are 
hearing from constituents that this is a problem. They find it 
difficult, they find it offensive to have to go through this. I 
have to believe there is a better way than where we are now. I 
think we--I know the Chairman shares that assessment, our 
colleagues do too. So I hope you will work with us on that and 
with the VSOs. I will note for the record nodding their heads 
that this is something that we should better.
    Because part of it is about efficiency, but also 
recognizing the trauma and the loss that is reflected here. And 
we--it is human nature that people may have difficulty filling 
out those forms at that time and they shouldn't be penalized 
for that. We should find a more efficient way of proceeding.
    Ms. Pozzebon, you--I want to, again, pick up with where the 
Chairman left off. So it is--is it your opinion and read of the 
law that Congress does need to act in order to empower VA to 
really effectively work with the Park Service to provide 
appropriate burial for veterans who chose to be buried in these 
important national sites?
    Ms. Pozzebon. So, yeah, so currently the statutory 
authority the way it is written allows--it requires that the 
Secretary provide the outer burial receptacle for veterans who 
choose to be buried in a national cemetery under the control of 
the National Cemetery Administration. So if we were to provide 
them, yes, that would, you know, language would need to be 
changed in order for that occur.
    Ms. Esty. Thank you. I realize for anybody watching this it 
may seem like a technicality, but it matters a lot to our 
veterans. And we know we have challenge--space limitations and 
challenges in some of our national veteran cemeteries. And for 
those who choose to be buried in these really beautiful sites 
that may be close to home we want to facilitate that for 
veterans who make that choice and empower the VA to properly 
provide for the remains of veterans who choose that. So I think 
that looks like something we absolutely need to be passing 
through this Committee.
    To Mr. Lohman and Mr. Fuentes, you got short thrift there 
in making the case to let people know why it is so important 
for our veterans to receive this cost of living increase, which 
is not automatic in the same way that it is for social 
security. So we are going to start with Mr. Fuentes who got--
who went second last time. Thank you.
    Mr. Fuentes. Thank you, ma'am. And, you know, I think what 
is very important that's included in here is the fact that it 
is automatic. Because you have veterans who are really just 
waiting and hoping that Congress is able to act that year so 
that they are able to afford the increases in their electricity 
and gas and food and all of those basic necessities, right. 
Those increase, their benefits must increase as well and it 
shouldn't take an act of Congress for it to do so.
    Ms. Esty. Amen, yes. And we agree with you that it should 
be automatic. And we would prefer that it return to a point it 
is automatic, that is as it ought to be. Mr. Lohmann.
    Mr. Lohmann. Yeah, I would just echo Mr. Fuentes' statement 
that we would really prefer it to be automatic as well and 
remove it from the equation and take veterans out of the 
debate.
    Ms. Esty. Absolutely. I want to thank again the four of you 
for joining us here today. And I know the Chairman and I 
absolutely if we had that magic wand we would wave it and make 
it automatic. Right now where we are at this point in Congress 
this is what we can do is what we are doing. But don't mistake 
our commitment to try to get this rectified so it is permanent. 
It ought to be permanent, it ought to be automatic. Thank you 
very much.
    Mr. Bost. Okay. If there are any other further questions 
for our second panel you are excused, but thank you to everyone 
for joining us here today, for sharing your views with the 
Subcommittee. Your testimony provides us with important insight 
into those proposed as we move forward with this legislative 
process.
    I ask unanimous consent that all written statements 
provided by the--for the record be included in the hearing 
record. I also ask unanimous consent that all Members have five 
legislative days to revise and extend the remarks and include 
continuous material of any of all of the bills under 
consideration this afternoon. Without objection, so ordered. 
This hearing is now adjourned.

    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                   Prepared Statement of Cheryl Rawls
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to provide the views of the Department of Veterans Affairs 
(VA) on pending legislation affecting VA's programs. Accompanying me 
today is Ms. Lisa Pozzebon, Executive Director, Office of Cemetery 
Operations, National Cemetery Administration (NCA).

H.R. 888

    Section 1318 of Title 38, United States Code (U.S.C.), provides for 
dependency and indemnity compensation (DIC) for survivors of a Veteran 
who received or was entitled to receive compensation for a service-
connected disability that was rated totally disabling for a certain 
amount of time immediately preceding death. H.R. 888 would amend 
section 1318 to require the Secretary of Veterans Affairs to treat 
notification of a Veteran's death as a DIC claim by the surviving 
spouse and children of the deceased Veteran, and would preclude the 
Secretary from requiring the spouse and children to file a claim for 
such benefits.
    VA does not support H.R. 888 because VA currently has the means to 
promptly provide DIC to eligible survivors. Under 38 U.S.C. Sec.  
5101(a)(1)(B), VA may pay DIC or pension to a survivor of a Veteran who 
has not filed a formal claim if the record contains sufficient evidence 
to establish the survivor's entitlement to such benefits. The effective 
date of the survivor's claim is the date on which the survivor notifies 
VA of the death of the Veteran by means of a death certificate or other 
relevant evidence that establishes entitlement, or the date on which 
the head of any other U.S. Government department or agency notifies VA 
of the Veteran's death. The statute specifically states that, in 
notifying VA of the Veteran's death, the survivor or the survivor's 
representative may submit additional documents relating to the death 
``without being required to file a formal claim.'' This proposed 
amendment is not applicable to Active duty deaths. It is specific only 
to 38 U.S.C. Sec.  1318 and therefore, it is only applicable to those 
Veterans who meet the requirements under section 1318. Veterans who 
meet section 1318 requirements have been released from Active duty and 
are already in receipt of VA compensation benefits.
    In addition, when VA receives notice of a Veteran's death, the 
Veterans Benefits Administration provides the Veteran's next-of-kin 
with notice of the benefits to which he or she may be eligible and 
instructions on how to apply for VA benefits. Also, under VA 
regulations, 38 Code of Federal Regulations section 3.155(b), a DIC 
claimant could submit an intent to file a claim for VA benefits, and 
upon receipt of the intent to file a claim, VA would furnish the 
claimant with the appropriate applicable form. If VA receives a formal 
claim within 1year of receipt of the intent to file a claim, the 
completed claim would be considered filed as of the date the intent to 
file a claim was received.
    Finally, even if H.R. 888 were enacted, VA would be required, in 
some instances, to collect information from the survivor to establish 
entitlement to DIC, and as a result, VA would not be able to pay DIC to 
the survivor until evidence sufficient to establish entitlement is 
received.
    We agree that the statute does not require VA to start paying DIC. 
However, VA already has in place expedited payment of DIC under section 
1318 to a surviving spouse without the filing of a claim when there is 
sufficient evidence of record to establish entitlement to the benefit. 
Therefore, VA does not feel the amendment is necessary to achieve the 
desired effect of the amendment.
    Additionally, upon notification of the death of a Veteran who is 
receipt of VA benefits, VA provides notification either to the estate 
or surviving spouse, if of record. This notification informs the 
recipient of all potential benefits and how to apply for them.
    Finally, although the report of death will generate a claim and VA 
review, the collection of evidence needed that will be unavailable at 
the time of review will require VA to have to wait to substantiate or 
finalize a claim. This has the potential to create a workload that VA 
cannot address, let alone complete, because the required evidence 
doesn't exist in VA's record and may not be provided.
    No benefit or general operating expenses would be associated with 
H.R. 888.

H.R. 4335

    H.R. 4335, the ``Servicemember Family Burial Act,'' would authorize 
the Secretary to provide a memorial headstone or marker for placement 
in a national cemetery for the spouse or child of a member of the Armed 
Forces serving on Active duty under conditions other than dishonorable, 
as shown by a statement from a general court-martial convening 
authority, at the time of the spouse or child's death. The bill would 
also authorize VA to inter in a national cemetery under NCA control, 
the spouse, minor child and, in the Secretary's discretion, unmarried 
adult child of a member of the Armed Forces serving on Active duty 
under conditions other than dishonorable, as shown by a statement from 
a general court-martial convening authority, at the time of the death 
of the spouse or child. By adding these individuals to the list of 
those eligible for interment in a national cemetery in section 
2402(a)(5), VA would also be able to provide a headstone or marker for 
the grave of such individuals if they are buried in a state Veterans' 
cemetery as provided in 38 U.S.C. Sec.  2306(a)(4).
    VA supports H. R. 4335 because it ensures that Active duty 
Servicemembers whose survivors die may bury their loved ones in a VA 
national cemetery. NCA currently processes requests for burial of 
spouses and eligible dependent children of Active duty Servicemembers 
in VA national cemeteries on a case-by-case basis pursuant to the 
Secretary's discretionary authority in 38 U.S.C. Sec.  2402(a)(6). H.R. 
4335 would eliminate the need for such review of each burial request 
for a deceased spouse or dependent child of an Active duty 
Servicemember, thus eliminating any delay in a burial decision.
    Enactment of H. R. 4335 would result in total benefit costs of 
$25,000 in fiscal year (FY) 2019; $122,000 over 5 years; and $239,000 
over 10 years. Additionally; Enactment of H. R. 4335 would result in 
total discretionary burial operation costs of $18,000 in FY2019; 
$94,000 over 5 years, and $198,000 over 10 years.

H.R. 4910

    H.R. 4910, the ``Veterans Cemetery Benefit Correction Act,'' would 
require the Secretary of the Interior to provide an outer burial 
receptacle for each new grave in an open cemetery under the control of 
the National Park Service. The bill would amend 38 U.S.C. Sec.  2306(e) 
to authorize the Secretary of the Interior to promulgate regulations or 
procedures governing the use of outer burial receptacles in a National 
Park Service Cemetery, including regulations specifying the amount of 
administrative costs incurred by the Secretary of the Interior that 
must be paid by survivors if an outer burial receptacle is provided in 
lieu of a grave liner and providing for the use of a voucher system or 
other system of reimbursement for payment for outer burial receptacles.
    VA defers to the Department of the Interior on H.R. 4910.

H.R. 4958

    H.R. 4958, the ``Veterans' Compensation Cost-of-Living Adjustment 
Act of 2018,'' would require the Secretary to increase the rates of 
disability compensation and DIC by the same percentage as any increase 
to Social Security benefits effective on December 1, 2018. The bill 
would also require VA to publish these increased rates in the Federal 
Register.
    VA strongly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children. The 
bill would also ensure that the value of these benefits keeps pace with 
increases in consumer prices.
    VA estimates the cost of this bill would be $1.6 billion in FY2019; 
$10 billion over 5 years; and $22 billion over 10 years. However, the 
cost of these increases is included in VA's baseline budget because VA 
assumes that Congress will enact a cost-of-living adjustment each year. 
Therefore, enactment of H.R. 4958 would not result in additional costs, 
beyond what is included in VA's baseline budget.
    This concludes my statement, Mr. Chairman. We would be happy now to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                
                  Prepared Statement of Larry Lohmann
    Chairman Bost, Ranking Member Esty, and distinguished members of 
the Committee; On behalf of our National Commander, Denise H. Rohan, 
and the over 2 million members of The American Legion, we thank you for 
this opportunity to testify regarding The American Legion's positions 
on pending legislation before this Committee. Established in 1919, and 
being the largest veteran service organization in the United States 
with a myriad of programs supporting veterans, we appreciate the 
Committee focusing on these critical issues that will affect veterans 
and their families.

H.R. 888

    To amend title 38, United States Code, to improve dependency and 
indemnity compensation for survivors of certain totally disabled 
veterans.
    This bill will improve and simplify the application process for 
surviving spouses and children of deceased veterans by requiring the 
Department of Veterans Affairs (VA) to treat notification of the 
veteran's death as a claim for Disability and Indemnity Compensation 
(DIC).
    The American Legion has long supported any action that makes filing 
claims easier for veterans and their dependents. In 2015, The American 
Legion opposed VA standardization of forms eliminating the ability for 
informal claims. Since that time, The American Legion has supported 
reinstating informal claims and adopted resolutions to reach that end 
as well as generally ease administrative burdens on veterans and their 
families. This bill eases the burden currently existing on surviving 
spouses and children of deceased veterans.
    Under current law, surviving spouses and children claimants must 
file a formal claim form to start the claims process for DIC. If the 
claim is filed within one year of the veteran's death and granted, the 
VA will then pay retroactive benefits back to the date of the veteran's 
death. Otherwise, claims granted that were filed after one year from 
the date of death are only paid back to the date of claim. Regrettably, 
there are too many cases where grieving spouses and/or children 
promptly notified VA of the death of the veteran, but were not informed 
to file for DIC benefits within one year of the death. Consequently, 
many survivors have lost years of retroactive benefits because they did 
not know to file a claim for DIC.
    Through Resolution No. 377, The American Legion supports 
legislation to enhance the quality of life for veterans, dependents, 
and their survivors. \1\ Because the reporting date of a veteran's 
death is data that can be easily tracked by VA for claim establishment 
and adjudication purposes this bill is a common sense ``fail-safe'' 
solution to help grieving survivors during their greatest time of need, 
and ensures retroactive DIC benefits are not lost they may be otherwise 
entitled to.
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 377: Support for Veteran Quality 
of Life
---------------------------------------------------------------------------
    The American Legion supports H.R. 888.

H.R. 4335: Servicemember Family Burial Act

    To amend title 38, United States Code, to provide for headstones 
and markers for, and interment in national cemeteries of, deceased 
spouses and dependent children of members of the Armed Forces serving 
on Active duty, and for other purposes.
    The American Legion through its National Cemetery Committee has 
formulated and recommended policies, plans, and programs related to the 
VA national cemeteries, and the interment of veterans, military 
members, and their dependents. The American Legion believes that all 
veterans, Active duty members, and their families should be honored 
with final resting places with honor and lasting tributes for their 
service to our Nation. We believe that all veterans and their eligible 
family members have earned burial benefits including a gravesite in any 
national cemetery with available space, or a VA-funded state or tribal 
cemetery including; the opening and closing of the grave; grave liner; 
government headstone or marker; and perpetual care of the grave at no 
cost to the family.
    Currently, the National Cemetery Administration (NCA) already 
provides headstones and markers for, and interment in national 
cemeteries, to eligible family members of Active duty personnel at the 
time of need, but it is not codified in statute. NCA is able to provide 
the benefit through a waiver process when an application is received. 
HR 4335 would amend Section 2306(b)(2) of title 38 to include members 
of the Armed Forces on Active duty. With the passage of this bill, the 
application process for Active duty members will be streamlined with 
the elimination of the waiver request, which will allow the family 
additional time to make proper arrangements during a difficult time. 
Similarly, in adopting this law this would make the authority NCA is 
currently relying on obsolete.
    Through Resolution No. 377, The American Legion supports 
legislation to enhance the quality of life for veterans, dependents, 
and their survivors. Codifying this to make this benefit permanent for 
Active duty members of the Armed Forces is common sense and the right 
thing to do for their service to our country.
    The American Legion supports H.R. 4335.

H.R. 4910: Veterans Cemetery Benefit Correction Act

    To amend title 38, United States Code, to provide outer burial 
receptacles for remains buried in National Parks, and for other 
purposes.
    The American Legion's National Cemetery Committee formulates and 
recommends to the National Executive Committee, through the Veterans 
Affairs & Rehabilitation Commission, policies, plans and programs as 
they relate to Department of Veterans Affairs' national cemeteries, and 
the interment of veterans, military and their dependents. This includes 
Arlington National Cemetery administered by the Department of the Army.
    The National Park Service (NPS) currently controls 14 national 
cemeteries, although only two are still active, i.e., Andersonville 
National Cemetery in Georgia and Andrew Johnson National Cemetery in 
Tennessee. Veterans who wish to be buried at these two cemeteries must 
pay the cost of their own outer burial receptacle (OBR). Veterans 
buried in national or state cemeteries controlled by the VA's National 
Cemetery Administration (NCA) are provided an OBR at no cost. This gap 
in benefits creates an undue burden of expense.
    The American Legion supports this bill because it aims to ensure 
that veterans receive the same level of benefits and is consistent with 
American Legion Resolution No. 146, which urges Congress to review 
current legislation and public laws to ensure that veterans' benefits 
are provided equitably and consistently for all veterans. \2\
---------------------------------------------------------------------------
    \2\ Resolution No. 146: Veterans Receive Same Level of Benefits
---------------------------------------------------------------------------
    The American Legion supports H.R. 4910.

H.R. 4958: Veterans' Compensation Cost-of-Living Adjustment Act of 2018

    To increase, effective as of December 1, 2018, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans, and for other purposes.
    This bill will provide a Cost of Living Allowance (COLA) effective 
December 1, 2018. Disability compensation and pension benefits awarded 
by the VA are designed to compensate veterans for medical conditions 
due to service or those who earn below a designated income threshold. 
H.R. 4958 appropriately recognizes annual increases to costs of living, 
and increases benefits commensurate with those cost increases.
    For nearly 100 years, The American Legion has advocated on behalf 
of our Nation's veterans, to include the awarding of disability 
benefits associated with chronic medical conditions manifest related to 
selfless service to this Nation. Annually, veterans and their family 
members are subjects in the debate regarding the annual cost of living 
adjustment for these disability benefits. For these veterans and their 
family members, COLA is not simply an acronym or a minor adjustment in 
benefits; instead, it is a tangible benefit that meets the needs of the 
increasing costs of living in a Nation they defended.
    The American Legion is pleased to support this bill, in part 
because it does not include two mechanisms we are resolved to oppose, 
Consumer Price Indexing and ``round down'' provisions. The American 
Legion opposes using any Consumer Price Index that would reduce the 
annual cost-of-living adjustment for military retirees, veterans 
receiving Social Security benefits or VA beneficiaries. \3\ Similarly, 
The American Legion also appreciates this bill does not include 
``round-down'' provisions, where veterans' benefits would be rounded-
down to the next whole dollar to save money. Rounding down is a 
slippery slope that dilutes the value of future benefits. Veterans 
should never have their benefits ``round down'' to provide legislative 
fiscal ease to help offset the cost of creating or expanding additional 
benefits elsewhere under Title 38.
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 164: Oppose Lowering of Cost-of-
Living Adjustments
---------------------------------------------------------------------------
    The American Legion supports legislation to provide a periodic 
cost-of-living adjustment increase and to increase the monthly rates of 
disability compensation. \4\
---------------------------------------------------------------------------
    \4\ American Legion Resolution No. 187: Department of Veterans 
Affairs Disability Compensation
---------------------------------------------------------------------------
    The American Legion supports H.R. 4958.

CONCLUSION

    As always, The American Legion thanks this Subcommittee for the 
opportunity to elucidate the position of the 2 million veteran members 
of this organization. For additional information regarding this 
testimony, please contact Mr. Larry Lohmann, Assistant Director of The 
American Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f19d9d9e999c909f9fb19d9496989e9fdf9e8396df">[email&#160;protected]</a>

                                
                  Prepared Statement of Carlos Fuentes
    Chairman Bost, Ranking Member Esty and members of the Subcommittee, 
on behalf of the men and women of the Veterans of Foreign Wars of the 
United States (VFW) and its Auxiliary, thank you for the opportunity to 
provide our remarks on legislation pending before the Subcommittee.
    H.R. 888, to improve dependency and indemnity compensation for 
survivors of certain totally disabled veterans.
    The VFW supports this legislation, which would require the 
Department of Veterans Affairs (VA) to treat a notification of the 
death of a veteran rated totally disabled at the time of death as a 
claim by the veteran's surviving spouse and children for dependency and 
indemnity compensation (DIC) benefits.
    DIC is a monthly benefit that is paid to eligible survivors of 
servicemembers who died while on active-duty training or inActive duty 
training; veterans whose death resulted from service-connected 
conditions; and veterans with a disability rating of total and 
permanent at time of death. Currently, once eligibility is established, 
the beneficiary must complete a 10-page claim form and mail it into the 
Pension Management Center (PMC) that has jurisdiction over their state. 
This process can take months to complete and often leaves the 
beneficiary confused and frustrated.
    The VFW feels that this legislation would be a good step toward 
mitigating the need for grieving survivors to file additional paperwork 
to receive DIC. In light of this, we are curious as to how VA plans on 
implementing this change.
    Ideally, the Office of Information Technology (OIT) should be 
responsible for automating the process to ensure that DIC claims for 
those who are affected by this legislative change would be adjudicated 
separately from standard DIC claims. Doing so would guarantee that the 
process operates as efficiently as possible, but also prevent a 
substantial backlog at the regional PMCs.

H.R. 4335, Servicemember Family Burial Act

    The VFW supports this legislation, which would require the 
Department of Veterans Affairs (VA) to provide headstones and markers 
for, and interment in national cemeteries of, deceased spouses and 
dependent children of members of the Armed Forces serving on Active 
duty.
    Spouses and dependent children of Active duty servicemembers are 
eligible for burial at cemeteries maintained by the National Cemetery 
Administration (NCA) in the event that they proceed the servicemember 
in death. However, this is only done on a case-by-case basis, with the 
approving authority resting in the hands of the Under Secretary for 
Memorial Affairs. According to NCA, this process often requires the 
active-duty servicemember to submit information that may be considered 
intrusive and taxing, especially at a time of mourning, and can lead to 
a delay in the final adjudication process.
    Given the anticipated population that would now be eligible under 
this proposal, it is expected that NCA burials would only increase by 
approximately 50 burials a year due to the overall health and age of 
this population. In reviewing the number of exceptions that NCA has 
made over the past 50 years, this number has remained extremely 
consistent. Last year, for instance, there were 43 exceptions granted 
by NCA.

H.R. 4910, Veterans Cemetery Benefit Correction Act

    The VFW supports this legislation, which would require the 
Secretary of the Interior to provide outer burial receptacles to those 
who wish to be interred in cemeteries under the jurisdiction of the 
National Park Service (NPS).
    Currently, both VA and the Department of Defense (DoD) are required 
to provide outer burial receptacles for remains that are going to be 
interred in either a VA national cemetery or a DoD cemetery, such as 
Arlington National Cemetery. The next of kin may choose to purchase and 
use a private outer burial receptacle, rather than use the government-
furnished grave liner and receive a monetary allowance equal to the 
average cost to the government of a grave liner, less administrative 
costs.
    However, in the cemeteries that fall under NPS jurisdiction, there 
is no offset or reimbursement provided to the family of the veteran, 
even in cases where the NPS cemetery is the most viable location for 
the family. Currently, NPS manages 14 national cemeteries. Eleven of 
these cemeteries were transferred from the War Department to the 
Department of the Interior by Executive Order No. 6166 in 1933. Three 
national cemeteries were authorized or transferred after 1933. These 
cemeteries represent a continuum of use dating to a period before the 
establishment of the historical parks of which they are an integral 
part, and are administered to preserve the historic character, 
uniqueness, and solemn nature of both the cemeteries and the historical 
parks.
    National cemeteries administered by NPS are classified as either 
``active'' or ``closed.'' Active cemeteries have casket or cremation 
gravesites available for first interments. A first interment is the 
initial burial of human remains following the death of the individual. 
Closed cemeteries have no available unreserved gravesites for either 
casket or cremation first interments, but may inter eligible family 
members in the same gravesite as previously interred individuals.
    There are two active national cemeteries currently administered by 
the NPS that are open for new interments: Andersonville and Andrew 
Johnson National Cemeteries. Unlike cemeteries under VA jurisdiction, 
NPS is under no obligation to provide a grave liner. The VFW agrees 
that veterans who choose to be buried at these cemeteries deserve the 
same honor as those who are buried in VA and DoD cemeteries.

H.R 4958, Veterans' Compensation Cost-of-Living Adjustment Act of 2018

    The VFW strongly supports this legislation which would increase the 
cost-of-living allowance (COLA) for veterans and survivors receiving 
disability compensation, DIC, clothing allowance, and other VA 
benefits.
    Disabled veterans, along with their surviving spouses and children, 
depend on VA benefits to bridge the gap of lost earnings caused by the 
veteran's disability. However, each year veterans wait anxiously to 
find out if their benefits will keep pace with the rate of inflation. 
Currently, there is no automatic trigger that increases these forms of 
compensation for veterans and their dependents. It should not take an 
act of Congress to provide the same adjustment that is automatically 
granted to Social Security beneficiaries.
    The VFW is glad this bill would authorize automatic COLA increases 
based on the percentage increases under the Social Security Act. The 
VFW is confident that this legislation will provide millions of 
veterans with an added layer of financial security.
    Mr. Chairman, this concludes my testimony. Again, the VFW thanks 
you and Ranking Member Esty for the opportunity to testify on these 
important issues before this Subcommittee. I am prepared to take any 
questions you or the Subcommittee members may have.

                                 
                       Statements For The Record

                         HONORABLE WALTER JONES
    Hearing statement of Congressman Walter B. Jones on H.R. 888 before 
the House Veterans' Affairs Subcommittee on Disability Assistance and 
Memorial Affairs.
    Mr. Chairman, Ranking Member, and distinguished members of this 
Subcommittee, I respectfully submit this statement to you in support of 
H.R. 888, a bill to improve Dependency and Indemnity Compensation (DIC) 
for survivors of certain totally disabled veterans. This bill will 
reduce the administrative burdens on grieving family members, and 
ensure that they receive the benefits that they are entitled to as 
quickly and expeditiously as possible.
    Dependency and Indemnity Compensation is a tax free monetary 
benefit paid to eligible survivors of military servicemembers who died 
in the line of duty, or whose death resulted from a service-related 
injury or disease.
    Currently, after reporting the death of a totally disabled family 
member, survivors are then required to apply for DIC by filling out a 
lengthy 12 page form. This form consists of information that the VA 
already possess, and results in a gap in payment while the form is 
processed. In cases where the surviving family members fail to fill out 
the correct form, no compensation is ever provided.
    This process presents an unnecessary financial burden on grieving 
families, as well as an increased administrative workload for the VA. 
Not only does the form need to be processed, but survivors often 
require the assistance of Veterans Service Officers to fill it out. In 
some extreme cases, it can take between 18 and 24 months for the VA to 
start paying DIC to the family members as a result of this arduous 
process.
    This unnecessarily onerous procedure was first brought to my 
attention by my Military and Veterans Advisor, Jason Lowry, who had 
assisted a number of my constituents through the very same process. As 
he worked with a Retired Affairs Officer from the Marine Corps, Luis 
Alers, he discovered a more efficient alternative, which is laid out in 
this legislation.
    H.R. 888 will streamline the process by requiring the VA to 
immediately treat a notification of the death of a totally disabled 
veteran as a claim by the veteran's surviving spouse and children for 
dependency and indemnity compensation benefits. The VA may not require 
that such spouse and children file a claim for benefits - They are 
automatically ``opted in.'' This will ensure that surviving family 
members receive their rightful compensation quickly, as well as reduce 
administrative requirements on the VA.
    I urge you to support H.R. 888 and join me in maintaining the 
promise of Abraham Lincoln, ``to care for him who shall have borne the 
battle and for his widow, and his orphan.''

                                 
           NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 4910, a bill to amend title 
38, United States Code, to provide outer burial receptacles for remains 
buried in National Parks, and for other purposes.
    The Department supports this legislation, as it would eliminate an 
inconsistency between the veterans benefits provided at national 
cemeteries administered by the National Cemetery Administration and the 
benefits provided at national cemeteries administered by the National 
Park Service. However, to better meet the intent of H.R. 4910, the 
Department recommends several clarifying amendments that are described 
in this statement. In addition, the Department notes that this 
legislation would place a new financial obligation on the National Park 
Service.
    H.R. 4910 would require the Secretary of the Interior to provide an 
outer burial receptacle for a new grave in an open cemetery 
administered by the National Park Service. The bill would also allow 
the Secretary of the Interior to provide an outer burial receptacle 
other than a grave liner in a National Park, but would require that the 
survivors pay the amount by which the alternative outer burial 
receptacle exceeds the cost of a grave liner, as well as the amount of 
administrative costs incurred by the Secretary.
    The term ``outer burial receptacle'' includes both grave liners and 
burial vaults. In each instance, the casket is placed inside the outer 
burial receptacle. However, while a burial vault is sealed and lined, a 
grave liner is neither sealed nor lined. Grave liners and burial vaults 
serve multiple purposes, such as protecting the casket from the impact 
of the soil backfill and the equipment necessary for cemetery 
maintenance, and reducing the likelihood of the settling of grave 
backfill.
    The National Park Service administers 14 national cemeteries, all 
of which are associated with a battlefield or other historic site 
managed by the Service. The cemeteries are administered to preserve the 
historic character, uniqueness, and solemn nature of both the 
cemeteries and the national parks of which they are a part. At these 
cemeteries, the use of grave liners and vaults is allowed, but National 
Park Service policy requires that any costs associated with the 
acquisition and installments of such outer burial receptacles be 
assumed by the next of kin. The individual manager of a national 
cemetery administered by the National Park Service may implement 
additional policies specific to that cemetery regarding the use of 
outer burial receptacles. Andersonville National Cemetery, for example, 
requires the use of a grave liner for interment, while Andrew Johnson 
National Cemetery does not.
    38 U.S.C. 2306(e) requires the Secretary of Veterans Affairs to 
provide an outer burial receptacle for each new grave in an open 
cemetery under the control of the National Cemetery Administration, and 
authorizes the Secretary of the Army to provide an outer burial 
receptacle for such a grave in Arlington National Cemetery. The law 
also authorizes the provision of an outer burial receptacle other than 
a grave liner, but requires that the survivors pay the amount by which 
the alternative outer burial receptacle exceeds the cost of a grave 
liner, as well as the amount of administrative costs incurred by the 
Secretary of the Veterans Affairs or the Secretary of the Army. H.R. 
4910 would amend 38 U.S.C. 2306(e) to add this responsibility, as a 
requirement, to the Secretary of the Interior with respect to national 
cemeteries under the control of the National Park Service.
    While the Department supports the intent of the bill, we recommend 
that the phrase ``national cemetery administered by the National Park 
Service'' be substituted for the phrase ``cemetery under the control of 
the National Park Service''. The phrase ``cemetery under the control of 
the National Park Service'' could be interpreted to apply to all 
cemeteries inside the boundaries of units of the National Park Service 
- including private cemeteries - rather than national cemeteries only.
    The Department also recommends striking the phrase ``each such a 
grave in an open cemetery under the control of the National Park 
Service'' and replacing it with ``each such grave in a national 
cemetery administered by the National Park Service.'' The term ``open 
cemetery'' is not used by the National Park Service; national 
cemeteries are classified as either ``active'' or ``closed.'' Active 
cemeteries have casket or cremation gravesites available for first 
interments. Closed cemeteries have no available gravesites for either 
casket or cremation for first interments but may inter eligible family 
members of previously interred individuals. Of the 14 national 
cemeteries administered by the National Park Service, only two - 
Andersonville National Cemetery and Andrew Johnson National Cemetery - 
are currently active, or open to new burials. However, several other 
closed national cemeteries administered by the National Park Service 
are still conducting subsequent interments. The benefit, if enacted, 
should apply to new internments at both active and closed cemeteries.
    Finally, while the Department views this issue as a matter of 
equitable treatment for veterans and their families, we want to note 
that this bill would impose a new financial obligation on the National 
Park Service that is not included in its current budget. Based on the 
number of interments at Andrew Johnson National Cemetery over the last 
five years, we estimate that this benefit would cost between $13,000 
and $50,000 a year at that one cemetery alone. We do not have 
comparable estimates for the other 13 national cemeteries. If the bill 
were enacted, execution of this new benefit would be subject to the 
availability of appropriations and would need to be balanced with other 
park and program priorities of the National Park Service.
    Mr. Chairman this concludes our statement.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
